Department of Homeland Security
   Ofﬁce of Inspector General

             The Performance of 287(g) Agreements 

                        FY 2011 Update





OIG-11-119                                    September 2011
                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                                   September 30, 2011

                                         Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the progress made toward implementing recommendations from our
prior reports, OIG-10-63, The Performance of287(g) Agreements, issued March 2010,
and OIG-10-124, The Performance of287(g) Agreements Report Update, issued
September 2010. We also address the challenges in conducting inspection reviews of
287(g) agreements. The report is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                C---Sl1:OMt-­
                                      Carlton 1. Mann
                                      Assistant Inspector General for Inspections
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................4


     ICE Needs To Continue Efforts To Implement OIG Recommendations
       Regarding 287(g) Program Operations ......................................................................5

     Challenges for the 287(g) Inspections Unit Need To Be Addressed ............................6
        Training Program for 287(g) Inspectors Does Not Ensure
        Appropriate Skill Levels for Conducting Reviews..................................................6
        Recommendations....................................................................................................9

           Inspection Tools Need To Be Refined.....................................................................9

           Recommendations..................................................................................................12


           Ambiguities in MOA Requirements Do Not Facilitate
            Inspection Review Assessments .........................................................................12
           Recommendations..................................................................................................15

           ERO 287(g) Program Office Needs To Establish Procedures for
            Processing 287(g) Inspection Reports ................................................................15
           Recommendation ...................................................................................................16

           Reallocation of 287(g) Funds.................................................................................16

           Recommendations..................................................................................................17


           Management Comments and OIG Analysis ..........................................................17



Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................25

     Appendix B:           Management Comments to the Draft Report .......................................26

     Appendix C:           Status of Recommendations From Prior OIG Reports ........................35

     Appendix D:           Major Contributors to this Report........................................................43

     Appendix E:           Report Distribution ..............................................................................44



Abbreviations
DHS                   Department of Homeland Security
ENFORCE               Enforcement Case Tracking System
ERO                   Enforcement and Removal Operations
FOD                   Field Office Director
FY     fiscal year
ICE    U.S. Immigration and Customs Enforcement
LEA    law enforcement agency
MOA    Memorandum of Agreement
OBPP   Office of Budget and Program Performance
OIG    Office of Inspector General
OMB    Office of Management and Budget
OPR    Office of Professional Responsibility
SAC    Special Agent in Charge
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                Section 287(g) of the Immigration and Nationality Act, as
                amended, authorizes the Department of Homeland Security’s
                Immigration and Customs Enforcement (ICE) to delegate federal
                immigration enforcement authorities to state and local law
                enforcement agencies. The Department of Homeland Security
                Appropriations Act, 2010, requires, and House Report 111-157 and
                Conference Report 111-298 direct, that we report on the
                performance of 287(g) agreements with state and local authorities.

                This report is an update to OIG-10-63, The Performance of 287(g)
                Agreements, issued in March 2010, and OIG-10-124, The
                Performance of 287(g) Agreements Report Update, issued
                September 2010. Those reports included a total of 49
                recommendations to strengthen management controls and improve
                oversight of 287(g) program operations.

                In this review, we determined that ICE needs to continue efforts to
                implement our prior recommendations. In addition, we identified
                challenges that may reduce the effectiveness of a review process
                intended as a resource for ensuring compliance with 287(g)
                program requirements. ICE needs to (1) provide training for
                inspectors to ensure that they have sufficient knowledge of the
                287(g) Program, the Memorandum of Agreement with the state
                and local law enforcement agencies, and other skills needed to
                conduct effective inspection reviews; (2) develop and implement
                comprehensive analytical tools for use as part of the inspection
                review process; and (3) review and revise the Memorandum of
                Agreement with participating law enforcement agencies to ensure a
                clear understanding of 287(g) program requirements.

                We are making 13 recommendations for ICE to improve overall
                operations of the 287(g) program. Immigration and Customs
                Enforcement concurred with 12 of the recommendations.




                The Performance of 287(g) Agreements FY 2011 Update


                                      Page 1

Background
                          In September 1996, Congress authorized the executive branch to
                          delegate immigration enforcement authorities to state and local
                          government agencies. The Illegal Immigration Reform and
                          Immigrant Responsibility Act of 19961 amended the Immigration
                          and Nationality Act by adding section 287(g).2 Under this section,
                          the Secretary of Homeland Security is authorized to enter into
                          written agreements with state and local law enforcement agencies
                          (LEAs) to facilitate the delegation of immigration enforcement
                          functions to select law enforcement officers.3 The law requires
                          that this delegation of immigration enforcement authorities be
                          executed through formal written agreements, referred to as a
                          Memorandum of Agreements (MOAs).

                          MOAs are executed between the Assistant Secretary for ICE and
                          the participating agency’s authorized representative. The
                          agreements describe the terms and conditions under which
                          participating LEA personnel will function as immigration officers.
                          Pursuant to these MOAs, designated officers who receive
                          appropriate training and function under the supervision of ICE are
                          permitted to perform immigration law enforcement duties.

                          The federal government did not enter into any 287(g) agreements
                          between 1996 and 2002. From 2002 to 2006, the Department of
                          Homeland Security (DHS) delegated enforcement authorities to six
                          jurisdictions. After 2006, the 287(g) program expanded as interest
                          in interior immigration enforcement at the state and local levels
                          increased and more dedicated funding for 287(g) program efforts
                          was made available.

                          MOAs designate the 287(g) program model that jurisdictions are
                          authorized to use. Participating jurisdictions employ a Detention
                          Model, Task Force Officer Model, or both, referred to as the Joint
                          Model.4 The Detention Model involves partner agencies
                          exercising their immigration-related authorities only with aliens
                          who are detained. 287(g) officers assigned to a jail or correctional
                          facility identify and initiate immigration proceedings for aliens
                          subject to removal who have been charged with or convicted of an

1
  P.L. 104-208, sec. 133, Sept. 30, 1996.

2
  Codified at 8 U.S.C. 1357(g).

3
  The text of 8 U.S.C. 1357(g) specifically names the Attorney General, rather than the Secretary of 

Homeland Security, as having this authority. However, this and other immigration enforcement functions

of the Immigration and Naturalization Service were transferred to the Department of Homeland Security 

under the Homeland Security Act of 2002 (6 U.S.C. 251).

4
  The name Jail Enforcement Model was changed to Detention Model in the revised MOA.


                          The Performance of 287(g) Agreements FY 2011 Update


                                                 Page 2

offense. The Task Force Officer Model is composed of partner
officers assigned to task force operations, supported by ICE or
partner officers in the field who are supervised by ICE. Officers
exercise their immigration-related authorities during criminal
investigations involving aliens within their jurisdiction or as
directed by the ICE Special Agent in Charge (SAC). As of June 1,
2011, ICE had 69 MOAs in 24 states, with 34 Detention Models,
20 Task Force Officer Models, and 15 Joint Models.

In June 2010, management of the 287(g) programs was transferred
from the ICE Office of State, Local and Tribal Coordination to the
Enforcement and Removal Operations (ERO), Criminal Alien
Division. ERO maintains the day-to-day supervision of the 287(g)
jail enforcement functions and coordinates with Homeland
Security Investigations, which maintains supervisory responsibility
over 287(g) task force activities. The ICE Office of the Chief
Information Officer furnishes and installs information technology
equipment and provides technical support for 287(g) officers’
access to DHS systems. The Office of Training and Development
designs and delivers 287(g) training.

Within the ICE Office of Professional Responsibility (OPR), the
287(g) Inspections Unit is responsible for assessing the
effectiveness of ICE field offices in supervising and supporting
287(g) programs, as well as ICE and LEA compliance with
program policies and MOA requirements. Based on
recommendations in our prior OIG reports to strengthen
management controls and oversight of 287(g) operations, the
Inspections Unit was established in October 2010.

The Inspections Unit currently maintains 25 full-time positions in
OPR, with 14 positions in Washington, DC, and 11 positions in the
regions. The Deputy Division Director for the Inspections Unit
and two Section Chiefs manage the Inspections Unit. As shown in
figure 1, each Section Chief manages two inspection teams. The
results of 287(g) Inspections Unit inspection reviews provide ICE
management with information on the administration of the
program by local ICE offices and LEAs.




The Performance of 287(g) Agreements FY 2011 Update


                      Page 3

              Figure 1. OPR 287(g) Inspections Unit Organizational Chart

                                            Office of Professional Responsibility
                                                      287(g) Inspections Unit
                                                                Division Director
                        Senior Advisor
                                                      Inspections and Detention Oversight

                              MPA*
                             Support
                                                              Supervisory Special Agent
                                                               Deputy Division Director
                                                               287(g) Inspections Unit
                              MPA*
                              Budget




                       Supervisory Special Agent                                                 Supervisory Special Agent
                            Section Chief                                                             Section Chief
                             Team 2 & 3                                                                 Team 1 & 4



             Special Agent                   Special Agent                             Special Agent                   Special Agent
            OPR San Diego                  OPR Headquarters                          OPR Headquarters                 OPR Newark, NJ

             Special Agent                   Special Agent                             Special Agent                   Special Agent
           OPR Headquarters                OPR Headquarters                          OPR Headquarters                 OPR Los Angeles

             Special Agent                   Special Agent                             Special Agent                  Special Agent
           OPR Headquarters                 OPR El Paso, TX                          OPR Headquarters               OPR San Antonio, TX

             Special Agent                   Special Agent                            Special Agent                    Special Agent
            OPR Tampa, FL                   OPR Buffalo, NY                         OPR San Antonio, TX             OPR New Orleans, LA

             Special Agent                      MPA*                                   Special Agent                      MPA*
          OPR New Orleans, LA              OPR Headquarters                           OPR Tucson, AZ                 OPR Headquarters



                                                                                                          * Management and Program Analyst




     Source: ICE OPR 287(g) Inspections Unit.



Results of Review
     Our report provides updated information on the status of ICE efforts to address
     recommendations in our prior reports, The Performance of 287(g) Agreements
     and The Performance of 287(g) Agreements Report Update. As a result of
     recommendations in these reports, along with the need to improve overall
     operations, the 287(g) Inspections Unit established a dedicated staff of inspectors
     and a budget analyst position to ensure compliance with legal, regulatory, and
     MOA requirements. In addition, the inspections process has been enhanced to
     include detainee interviews and follow-up on previous reviews. The report format
     was also revised to include additional areas of inspection, analyses of ICE
     supervision and LEA compliance with the MOA, along with identifying
     nationwide issues and best practices for improving the 287(g) program.

     As part of our review of 287(g) inspections, we identified specific aspects that
     may further enhance ICE’s ability to achieve program objectives, as well as
     challenges that may reduce its effectiveness in improving program operations.


                         The Performance of 287(g) Agreements FY 2011 Update

                                                         Page 4
          ICE Needs To Continue Efforts To Implement OIG
          Recommendations Regarding 287(g) Program Operations
                   Our March 2010 report, The Performance of 287(g) Agreements, included
                   33 recommendations for ICE to strengthen management controls, promote
                   effective program operations, and address related risks. ICE concurred
                   with 32 of the recommendations. Based on our analysis of documentation
                   provided by ICE, we have closed 17 recommendations.

                   Our September 2010 report, The Performance of 287(g) Agreements
                   Report Update, included 16 recommendations for ICE to strengthen
                   management controls, improve effective program oversight, and mitigate
                   related risks. ICE concurred with all 16 recommendations. Based on our
                   analysis of the documentation provided by ICE, we have closed 12
                   recommendations.

                   To close a recommendation, we must agree with the actions ICE has taken,
                   or plans to take, to resolve our concerns. Corrective actions that ICE has
                   planned or taken for these recommendations included the following:

                           Establishing an inspection schedule and risk assessment tool;
                           Reviewing 287(g) program expenditures to ensure proper
                           accounting procedures;
                           Developing a new Chief Financial Officer Budget Execution
                           Handbook;
                           Establishing an OPR Inspections Unit with dedicated positions;

                           Developing training for 287(g) inspectors;

                           Developing staffing models for field oversight positions; 

                           Developing a process to review Enforcement Case Tracking 

                           System (ENFORCE)5 data; and
                           Developing a process for correcting and minimizing data entry
                           errors.

                   Appendix C provides details on the remaining 20 open recommendations.

                   ICE has improved in some areas of program operations. However, for
                   other important areas, ICE has provided action plans and related
                   documentation that do not address all critical issues we identified in our
                   prior reports.

                   The 287(g) program provides benefits to enhance the safety and security
                   of participating communities, as well as challenges for ICE that may
                   reduce the program’s effectiveness. Implementing corrective actions

5
    ENFORCE is the primary administrative case management system for ICE.

                           The Performance of 287(g) Agreements FY 2011 Update


                                                 Page 5

     described in our reports should enable ICE to achieve more effective,
     efficient, and economical program operations. Thus, we will continue to
     monitor ICE’s efforts to implement our recommendations.

Challenges for the 287(g) Inspections Unit Need To Be
Addressed
     In October 2011, OPR established the 287(g) Inspections Unit to assess
     conformance with conditions of MOAs between ICE and LEAs and
     provide management with information on the administration of the
     program by local ICE offices and LEAs. With the implementation of a
     new staffing model and dedicated inspectors, the number of inspections
     and the scope of their inspection reviews have increased. However, we
     observed a need for (1) more comprehensive training for inspectors,
     (2) improved inspection tools, and (3) increased supervision for 287(g)
     Inspections Unit team members to maximize the effectiveness and
     efficiency of inspection reviews.

     As part of our review, we observed 287(g) inspectors conducting onsite
     reviews at two LEAs—a Detention Model and a Task Force Officer Model.
     Fieldwork consisted of observing interviews with LEA officers and
     managers, ICE officials, and detainees. We also observed their review of
     selected Alien Files to assess compliance with terms of the MOA and ICE
     policies.

            Training Program for 287(g) Inspectors Does Not Ensure
            Appropriate Skill Levels for Conducting Reviews

            Because of the sensitivity of issues surrounding the 287(g) program,
            the inspection process is a primary tool for assessing compliance
            with MOAs to ensure that program goals are achieved. As such,
            proper training in MOA and 287(g) program requirements is
            critical. However, we identified several areas in the training for
            287(g) inspectors that need to be enhanced to ensure that they have
            an appropriate level of knowledge and related skills.

            Formal Training

            As part of the organizational changes, OPR staffed the 287(g)
            Inspections Unit primarily with former investigators from
            Homeland Security Investigations. In December 2010, OPR
            conducted a 3-day training seminar to provide the newly hired
            inspectors with an overview of the 287(g) program and the
            inspection process. Inspectors who attended the training seminar
            informed us that it provided a basic understanding of the 287(g)

            The Performance of 287(g) Agreements FY 2011 Update


                                  Page 6

program. However, the training did not include instruction in
critical skills needed as part of the review process, such as
interviewing techniques, report writing, and specific training on the
inspection process.

Participation in the December 2010 training seminar was mandatory
for all 287(g) inspectors. However, as of July 2011, OPR had hired
three new inspectors who have not received any formal training.

To assess whether the goals of the 287(g) program are being
achieved, inspectors must have a keen understanding of MOA
requirements. However, inspectors informed us that while the 3-
day formal training seminar was useful, it did not prepare them for
the practical requirements of conducting inspections. In addition,
another OPR inspector said that the effectiveness of interviews
during 287(g) reviews depends on inspectors’ knowledge of the
MOA. However, during our fieldwork, we observed instances
where inspectors were unfamiliar with certain aspects of the
inspection process, 287(g) criteria, and MOA program
requirements.

The 3-day training seminar devoted 1 hour of instruction to
understanding and interpreting the MOA. We also noted that the
training seminar included a half-hour segment on the inspection
process, although most of the inspectors relied on this training to
obtain an understanding of the 287(g) program. Several inspectors
suggested that it would be beneficial to expand this topic so they
could understand the process better before conducting an inspection.

We concluded that additional training would enable inspectors to
better assess compliance with 287(g) and MOA provisions. An
OPR supervisor said that OPR is in the process of revising the
training materials and developing lessons learned. However, a
timeframe has not been established for completing these tasks.

On-the-Job Training

To facilitate training, OPR supervisors said that inspectors with no
prior experience in the review process are assigned to inspection
teams with inspectors who have prior experience in conducting
inspection reviews. Experienced inspectors are expected to train
inspectors who are new to the inspection process. However, a
process for ensuring that inspectors receive on-the-job training as a
means for bridging any knowledge gaps has not been established.
As a result, we observed varying practices for providing on-the-job
training that resulted in varying levels of effectiveness.

The Performance of 287(g) Agreements FY 2011 Update


                      Page 7

We observed that inspectors vary considerably in their knowledge
of the 287(g) program and MOA requirements. For example, some
inspectors were unable to conduct reviews of Alien Files, a key
component of the inspection process, because they were unfamiliar
with related documents. However, this was not addressed as part
of their on-the-job training or any other training curriculum. An
ERO 287(g) program manager expressed concern that inspectors
may not have sufficient familiarity and experience with all 287(g)
program requirements, and may need additional training to be
effective in assessing compliance with the MOA.

During our fieldwork, supervisors did not accompany the teams
during inspections. At that time, there was only one supervisor on
board, and a second supervisor had only recently been selected for
the position. As part of the inspection process, periodic onsite
visits would assist supervisors in evaluating team and individual
performance and identifying possible gaps in training.

Interviewing Skills

We observed numerous interviews conducted by inspectors, and
identified a need for training in interviewing techniques.
Specifically, we noted instances where (1) the manner in which
questions were asked, (2) comments made by inspectors in
response to answers provided, and (3) the absence of follow-up
questions may have limited or influenced the information obtained
from LEA and agency officials. We also observed occasions when
inspectors provided acceptable answers as part of asking the
questions, and interjected personal opinions during discussions
related to 287(g) program areas.

OPR staff said that many of the inspectors had investigative
backgrounds and should already possess interviewing skills;
however, they added that some inspectors could benefit from
additional training in interviewing techniques.

Information obtained through interviews is a primary source for
determining compliance with MOA requirements. Applying
effective interviewing skills enables managers to evaluate and
identify best practices, as well as areas where improvements may
be needed. Therefore, it is essential that inspectors maintain
proficiency in effective interviewing techniques.




The Performance of 287(g) Agreements FY 2011 Update


                      Page 8

Recommendations
    We recommend that Immigration and Customs Enforcement:

    Recommendation #1: Enhance the current 287(g) training
    program to provide an appropriate level of coverage for all areas of
    the 287(g) inspection process and MOA requirements.

    Recommendation #2: Establish a process to ensure that formal
    training is provided to all inspectors.

    Recommendation #3: Develop and implement guidance for
    providing on-the-job training.

    Recommendation #4: Establish a process to ensure that
    inspectors are proficient in interviewing skills.

    Recommendation #5: Incorporate periodic supervisory field
    visits into the inspection process.


    Inspection Tools Need To Be Refined

    To assess compliance with the MOA, the inspection process
    includes (1) conducting interviews with LEA program participants
    and ICE officials and (2) reviewing policies, procedures, case files,
    statistics, and ENFORCE entries. To accomplish their mission,
    inspectors use inspection tools such as checklists and questionnaires
    to conduct interviews and analyze relevant documentation.
    However, we observed inconsistencies in how inspectors used these
    tools to conduct inspection reviews. In addition, our review of
    questionnaires and checklists identified gaps in MOA coverage.
    As a result, there is reduced assurance that inspectors’ assessments
    of LEA and ICE compliance with the MOA are performed either
    adequately or consistently.

    Inspection Checklists and Questionnaires Should Align With
    Provisions of the MOA

    As part of our review, we evaluated questionnaires used by
    inspectors to determine compliance with the MOA. Our analysis
    of 10 questionnaires used for interviewing 287(g) program
    participants revealed that 52% of the questions required a “yes” or
    “no” response. Responses to these types of questions may require
    additional follow-up to satisfy the intent of the questions.
    However, we observed instances where the inspector did not ask

    The Performance of 287(g) Agreements FY 2011 Update


                          Page 9

follow-up questions to determine MOA compliance. For instance,
an inspector asked LEA officers about their familiarity with 287(g)
reporting requirements. The officers simply answered that they
were familiar with these requirements. The inspector did not
request further elaboration on the topic, and received no additional
information regarding the officers’ knowledge of 287(g) reporting
requirements or procedures. Therefore, the inspector could not be
certain whether the depth of the officers’ knowledge was sufficient.

We also identified sections of the MOA that were not covered by
the questionnaires. These areas included supervision,
prioritization, civil rights standards, complaint procedures, and
release of information to the media. Table 1 identifies examples of
areas in the MOA that were not covered in the questionnaires.




The Performance of 287(g) Agreements FY 2011 Update


                      Page 10

Table 1. MOA Areas Not Covered in a Questionnaire
         MOA Section                  OIG Analysis of Question(s) Used To Assess
                                                  Related MOA Section
Determining the adequacy of          Inspection questionnaires and checklists do not
ICE supervision in accordance        verify how OPR determines whether the Field
with MOA requirements                Office Directors/Special Agents in Charge provide
                                     LEAs with current DHS policies regarding the
                                     arrest and processing of illegal aliens. For Task
                                     Force Officer models, it is not clear how OPR
                                     determines whether LEAs provide ICE supervisors
                                     with operations plans and whether the Special
                                     Agents in Charge approve the plans prior to their
                                     implementation.
Assessing whether LEAs use           Since the statistics on all arrests are either not
287(g) authorities in accordance     collected by LEAs or do not have to be provided to
with ICE’s priority levels           ICE even if collected, there are no measures for
                s                    ICE to determine whether all LEA jurisdictions use
                u                    immigration authorities granted in accordance with
                p                    ICE prioritization levels as described in appendix
                e                    D of the MOA.
Evaluating compliance
                r      with          The MOA specifies requirements and
“Complaint Procedures
                v      and           responsibilities for ICE OPR regarding its role in
Allegations Resolution
                i                    complaint procedures. However, the 287(g)
Procedures”     s                    Inspections Unit does not have a questionnaire or a
                                     formalized process for related interviews with
                o
                                     regional ICE OPR personnel.
                r
Verifying the procedures for         Questions and checklists do not address this entire
release of information to the        section. Since the MOA requires that the release
                 s
media and other third parties        of statistical information regarding the 287(g)
               t                     program by LEA be coordinated with the ICE
               a                     Office of Public Affairs, it is important to develop
               t                     tools to assess this area.
               e
Checking on credentials for          The questionnaire includes a question about task
Joint Enforcement
               d  Officers           force officers’ credentials. However, no similar
                                     question for jail enforcement officers exists.

Source: OIG Analysis.



                  OPR supervisors said that even though the questionnaires do not
                  cover all aspects of the MOA, inspectors are encouraged to ask
                  additional questions during interviews. However, variations in
                  inspectors’ skills, knowledge of the MOA, and interviewing
                  proficiency may result in minimal follow-up questions and
                  inadequate review coverage.

                  OPR recently included interviews with detainees as part of the
                  inspection process at LEAs with a Detention Model Program.
                  However, we observed uncertainty among inspectors regarding
                  how many detainees to interview, since this methodology was not

                  The Performance of 287(g) Agreements FY 2011 Update


                                        Page 11

    included in the inspection tools. Many of the inspectors we
    interviewed agreed that inspection tools could be improved,
    although they are meant to be used as a framework. Specific
    methodologies for completing certain tasks could be incorporated,
    as appropriate.

    OPR management officials explained that they are improving the
    analytical tools for conducting inspection reviews. Several
    Inspections Unit members have been tasked with updating the
    questions; however, this is a collateral duty, and a specific
    timeframe for completion has not been established.

    The Inspections Unit would benefit from using tools more closely
    aligned with MOA requirements. In the absence of appropriate
    tools for assessing compliance with each area of the MOA, the risk
    of incomplete coverage and inaccurate results is increased.


Recommendations
    We recommend that Immigration and Customs Enforcement:

    Recommendation #6: Revise the current inspection tools to
    ensure coverage of all applicable MOA sections.

    Recommendation #7: Ensure that inspection tools incorporate
    appropriate methodologies for specific tasks, including sampling
    techniques.


    Ambiguities in MOA Requirements Do Not Facilitate
    Inspection Review Assessments

    The MOA is the agreement between ICE and the LEA that
    authorizes qualified state and local law enforcement personnel to
    perform certain immigration functions. The agreement specifies
    the terms and conditions under which participating LEA personnel
    will function as immigration officers. However, our review of the
    MOAs identified broad-ranging terms and conditions for
    immigration enforcement, with a limited number of specific
    requirements regarding daily 287(g) operations. Several MOA
    provisions use vague terminology or are open to differences in
    interpretation on whether a specific provision is an option or a
    requirement. Thus, inspectors have experienced challenges
    (1) assessing compliance with MOA requirements due to
    inconsistencies in interpretations, (2) determining how to classify

    The Performance of 287(g) Agreements FY 2011 Update


                          Page 12

issues identified during their onsite inspection reviews that may be
interpreted as optional or mandatory, and (3) responding to specific
questions from LEA and ICE officials regarding MOA
requirements.

MOA Language

MOA language that includes terms such as “may” and “should”
appears to provide options regarding compliance with specific
MOA provisions. For instance, the MOA states that ICE “might”
ask the LEAs to provide certain crime statistics for their jurisdiction.
As a result, some LEAs feel that they are not required to track
crime statistics, and therefore are unable to provide this type of
information. ERO officials told us that the vagueness in MOA
language has resulted in inadequate information regarding 287(g)
prioritization, since ERO cannot compare overall criminal statistics
with those related to 287(g) program activities.

An ERO official identified another MOA section that is unclear
regarding the use of the interpreter line. Specifically, the MOA
identifies the use of the interpreter line as optional, as long as some
interpretation is provided to those with limited English proficiency.
LEA officers indicated that they often use fellow officers as
interpreters during their interviews, or rely on their own linguistic
abilities, however limited. However, an inappropriate level of
language proficiency could result in misinformation or
misinterpretation. ERO officials identified other sections of the
MOA for which it was difficult to determine compliance, such as
reimbursement of expenses and ICE areas of responsibility.

We also noted examples of where certain phrases such as “should
be notified immediately” have been interpreted by some to mean
within 24 hours, and by others to mean that notification is required
at the time the event occurs. Accordingly, neither ICE nor LEA
officials had a clear understanding of this requirement.

Inconsistencies in Classifying Reportable Issues

When assessing compliance with the MOA, inspectors classify
problem areas as either deficiencies or areas of concern.
According to an OPR manager, a deficiency is a violation of the
MOA or other established 287(g) policies. An area of concern is a
situation that could develop into a violation, or when ICE or LEAs
are not aware of policies or the MOA requirement, but a violation
has not occurred. ICE corrective action plans address remedial
action only for reportable items that are defined as deficiencies.

The Performance of 287(g) Agreements FY 2011 Update


                      Page 13

Reportable items identified as areas of concern do not require any
corrective action.

An area of concern also refers to a situation where the MOA
requirements are unclear because of terms such as “may” or
“should” to identify an action, and the LEA did not take the action.
In contrast, if the MOA states that a specific action “must” occur
and the review identifies that the action was not taken, this should
be reported as a deficiency. However, based on our review of
inspection reports, classifying a problem as either a deficiency or
area of concern has not been done consistently.

Inspections staff indicated that because several terms in the MOA
are subject to interpretation, there have been inconsistencies in
determining whether an action is a requirement or an option. This
has resulted in situations where inspectors and managers disagreed
about how MOA language should be interpreted and whether a
finding should be classified as an area of concern or a deficiency.
For example, during an inspection that we observed, the inspection
team identified a potential violation and documented it as an area
of concern. However, this issue was subsequently omitted from
the final report because of different opinions about whether there
was a violation, due to unclear MOA language. According to
inspectors, differences of opinion have occurred previously.

We analyzed inspection reports completed since January 2011 and
noted that the same violations were classified differently.
Specifically, three reports classified problems identified with
reporting encounters with individuals who claim U.S. citizenship
as a deficiency, while six reports classified the same problems as
an area of concern. In addition, violations in complaint procedures
were classified as a deficiency in one report, but as an area of
concern in five other reports.

We also identified inconsistent guidance from supervisors
regarding the classification of deficiencies from one review to
another, since direction was provided on a case-by-case basis. For
example, on different occasions, supervisors provided conflicting
guidance on whether to classify the same MOA noncompliance as
a deficiency or an area of concern. This decision affects whether a
corrective action plan is developed to correct the noncompliance.

OPR officials reported that they are developing definitions to
improve consistency in classifying issues identified during
inspections. However, a timeframe for this effort has not been
established.

The Performance of 287(g) Agreements FY 2011 Update


                      Page 14

    ICE officials said that certain language in the MOA is intended to
    allow for flexibility. However, clear and precise language would
    (1) eliminate the need to interpret program requirements,
    (2) provide a more definitive measure for assessing MOA
    compliance, and (3) ensure that corrective action plans are
    established, as needed, to improve program compliance.


Recommendations
    We recommend that Immigration and Customs Enforcement:

    Recommendation #8: Assess the current MOA to identify
    language that does not (1) clearly specify program requirements or
    (2) provide a measurable standard for assessing compliance.

    Recommendation #9: Develop MOA language that clearly
    specifies program requirements, provides a measurable standard
    for assessing compliance, and eliminates the need to interpret
    program requirements.

    Recommendation #10: Develop and standardize definitions for
    determining the appropriate classification for issues identified as a
    deficiency or area of concern.


    ERO 287(g) Program Office Needs To Establish Procedures
    for Processing 287(g) Inspection Reports

    From January to June 2011, the OPR 287(g) Inspections Unit
    forwarded 15 Inspection Reports to the ERO 287(g) Program
    Office for review and distribution. However, as of June 20, 2011,
    14 of these reports remain in ERO. An ERO official indicated that
    the delay was due to the Program Office revising its process for
    tasking ICE field offices with developing corrective action plans.

    According to ERO officials, they are evaluating the review
    process, with an emphasis on shortening the timeframe for
    corrective action plans and resolving deficiencies. However, at the
    conclusion of our fieldwork, procedures had not been issued, and
    field offices where inspections had been completed had not
    received the related inspection report.




    The Performance of 287(g) Agreements FY 2011 Update


                          Page 15

Recommendation
    We recommend that Immigration and Customs Enforcement:

    Recommendation #11: Develop a process to ensure that 287(g)
    Inspection Reports are provided timely to appropriate field offices.


    Reallocation of 287(g) Funds

    According to OMB Circular A-123, “Management Responsibility
    for Internal Control,” management is responsible for developing
    and maintaining effective internal controls to ensure that resources
    are used consistent with agency missions. In addition, internal
    controls must be established that reasonably ensure that funds and
    other assets are safeguarded against waste, loss, unauthorized use,
    or misappropriation.

    Of the total amount appropriated for the 287(g) program in the
    Consolidated Security, Disaster Assistance, and Continuing
    Appropriations Act, 2009, Congress directed $5 million for 287(g)
    inspections in Division D of the accompanying Committee Print of
    the House Committee on Appropriations. In our prior 287(g)
    report, we made recommendations to improve controls to ensure
    the appropriate use of 287(g) funds. As a result, ICE has made
    progress toward developing specific budget codes for 287(g)
    funds, and developed tracking systems to account for 287(g)-
    related expenditures. However, recent changes to the budget
    allocation process have caused concerns regarding efforts to
    reallocate 287(g) appropriated funds, since Congress stipulated that
    these funds may not be used for other than 287(g) activities.

    In fiscal year (FY) 2010, the responsibility for 287(g) program
    budget execution was transferred from the Office of State, Local
    and Tribal Coordination to the ERO Office of Mission Support.
    Although the ICE Office of Budget and Program Performance
    continues to allot the 287(g) funds as part of the overall
    appropriated budget, Mission Support is responsible for approving
    spend plans for nine separate 287(g) program activities and
    providing budget support as a liaison between these activities and
    the Office of Budget and Program Performance.

    In February 2011, ERO identified $11,000,000 in unobligated
    funds from seven of the nine separate programs to support ERO
    287(g)-related activities. Of this amount, $682,000 was from
    OPR. Based on interviews with ICE officials, we were unable to

    The Performance of 287(g) Agreements FY 2011 Update


                          Page 16

    confirm whether (1) specific guidance had been established
    regarding a reallocation of funds, (2) a reallocation of funds would
    be used to support specific ERO programs, (3) there would be a
    method for the affected program areas to receive additional funds
    from ERO, and (4) any reallocation of funds would be permanent.
    As of July 2011, a final determination regarding any new funding
    allocations had not been made.

    The Office of State, Local and Tribal Coordination currently
    receives $3 million in 287(g) funds. The Chief Financial Office
    receives $261,000 to support 287(g)-related activities. These funds
    were not part of the reallocation process. We have not been
    provided with supporting documentation to account for 287(g)-
    related initiatives.


Recommendations
    We recommend that Immigration and Customs Enforcement:

    Recommendation #12 (revised): Ensure that any reallocation of
    287(g) funds complies with Office of Management and Budget
    (OMB) and DHS policy guidance and relevant administrative
    controls.

    Recommendation #13: Provide a detailed analysis of 287(g)-
    related activities and associated costs to support their use as
    intended by appropriation.


Management Comments and OIG Analysis
    We evaluated ICE’s written comments and have made changes to
    the report where we deemed appropriate. Below is a summary of
    ICE’s written responses to our recommendations and our analysis
    of the responses. A copy of the ICE response in its entirety
    appears in appendix B.

    Recommendation #1: Enhance the current 287(g) training
    program to provide an appropriate level of coverage for all areas of
    the 287(g) inspection process and MOA requirements.

    ICE Response: ICE concurs with Recommendation #1.




    The Performance of 287(g) Agreements FY 2011 Update


                          Page 17

In September 2011, OPR will hold a 287(g) Inspection Training
Conference for all 287(g) Inspections Unit staff. Training will
cover the 287(g) MOA, ICE and partnering agencies’ adherence to
the MOA, interviewing techniques, the 287(g) Inspections Unit
Handbook, civil liberty issues, A-files, ENFORCE processing,
interpreting statistics, and inspection reports. The training will
also provide instruction regarding best practices for 287(g)
programs and ICE offices that supervise them.

OIG Analysis: Based on the review of the Training Conference
Agenda, we consider this recommendation resolved and open
pending completion of the training.

Recommendation #2: Establish a process to ensure that formal
training is provided to all inspectors.

ICE Response: ICE concurs with Recommendation #2.

OPR will provide annual training for the 287(g) Inspections Unit to
address areas identified by management as needing improvement.
If ICE management, Team Leaders, or employees identify a need
for additional training to assist 287(g) Inspection employees, OPR
will send the individual to additional ICE training. OPR secured
eight slots for 287(g) Inspections Unit employees to attend the next
session of the ICE Immigration Authority Delegation Program
Oversight training in October 2011.

OPR created a draft Roles and Responsibilities Handbook for
287(g) Inspections employees to provide new and existing 287(g)
Inspections Unit personnel a foundation for their daily roles and
responsibilities in support of the Unit.

OIG Analysis: This recommendation is resolved and open. To
fully satisfy the intent of this recommendation, ICE also needs to
develop a process to document any training needs that are
identified, along with actual measures taken to satisfy the specific
training needs.

Recommendation #3: Develop and implement guidance for
providing on-the-job training.

ICE Response: ICE concurs with Recommendation #3.

OPR will implement permanent Team Leaders for each inspection
team. Team Leaders will be responsible for training new members


The Performance of 287(g) Agreements FY 2011 Update


                      Page 18

of their inspection team and providing guidance for all existing
members.

New employees will be assigned as observers on initial inspections,
and accompany the inspection Team Leader during the pre-
inspection planning, inspection, and post-inspection duties. During
their second inspection, employees will again be assigned to observe
the Team Leader, but will be expected to play a more active role in
the inspection. On the third inspection, the new employee will
participate in the inspection as a full member of the team, with the
Section Chief accompanying the team to evaluate their
performance, as well as the performance of other team members
during selected inspections.

OIG Analysis: This recommendation remains unresolved and
open. While the Handbook identifies Team Leaders’
responsibility for on-the-job training, specific areas of training for
inspectors to ensure appropriate coverage and consistency among
teams were not identified.

Recommendation #4: Establish a process to ensure that
inspectors are proficient in interviewing skills.

ICE Response: ICE concurs with Recommendation #4.

In September 2011, OPR will hold a 287(g) Inspection Training
Conference in Washington, D.C. Two days will be dedicated to
interviewing techniques. All 287(g) Inspections Unit employees
will also be provided with an annual Performance Plan and
Appraisal outlining the individual goals and benchmarks needed to
achieve expectations in the 287(g) Inspections Unit. Each plan
will include measuring an individual’s interviewing skills.
Throughout FY 2012, supervisors will assess interview skills by
direct observation during inspections, and by reviewing interview
notes from inspections not attended by the supervisor.

OIG Analysis: Based in the review of the Training Conference
Agenda, we consider this recommendation resolved and open
pending our receipt, review, and implementation of the training
policy. This policy should not only included supervisors’ direct
observation of employees’ interviewing skills during FY 2012, but
in subsequent fiscal years as well.

Recommendation #5: Incorporate periodic supervisory field
visits into the inspection process.


The Performance of 287(g) Agreements FY 2011 Update


                      Page 19

ICE Response: ICE concurs with Recommendation #5.

In June 2011, 287(g) Inspections Unit Section Chiefs began
attending 287(g) reviews in an effort to evaluate team and
individual performances and identify possible gaps in training.
Section Chiefs attended 2 of the last 13 reviews. ICE will increase
the number of supervisory field visits in FY 2012 to accompany
inspection teams no less than eight times per fiscal year. The
Deputy Division Director will accompany inspection teams no less
than four times per fiscal year. These goals will be incorporated
into the Performance Plan and Appraisals for Section Chiefs and
the Deputy Division Director.

OIG Analysis: This recommendation is resolved and open
pending our receipt and review of the new Performance Plan and
Appraisal for Section Chiefs and the Deputy Division Director.

Recommendation #6: Revise the current inspection tools to
ensure coverage of all applicable MOA sections.

ICE Response: ICE concurs with Recommendation #6.

ICE is creating an MOA Measurable Template that highlights all
measurable sections of the MOA, and provides guidance and
investigative techniques on how Inspection personnel can determine
if the LEA and ICE are in compliance. OPR initiated a process to
update the interview worksheets to revise and incorporate new
questions as well as remove questions no longer relevant to the
287(g) program. OPR also made a concerted effort to create open-
ended questions that allow OPR personnel to better identify
interviewees’ knowledge on specific topics.

OPR created worksheets to provide 287(g) Inspections Unit
personnel with a resource to ensure that the same areas of
information are collected from each interviewee. Concerns and
recommendations made by OIG were incorporated into the
interview worksheets that will be provided to all 287(g) Inspections
Unit employees in the Roles and Responsibilities Handbook. OPR
anticipates having final versions of all interview worksheets by
October 31, 2011.

OIG Analysis: This recommendation is resolved and open
pending our receipt and review of the final OPR 287(g) Inspection
Unit MOA Measurable Template and interview worksheets.



The Performance of 287(g) Agreements FY 2011 Update


                      Page 20

Recommendation #7: Ensure that inspection tools incorporate
appropriate methodologies for specific tasks, including sampling
techniques.

ICE Response: ICE concurs with Recommendation #7.

OPR will create an inspection tool to provide a methodology for
determining sampling techniques during individual inspections.
The inspection tool will target how many detainees to interview,
A-files to review, and LEA and ICE personnel to interview to
ensure inclusion of supervisory levels and specific responsibilities
such as internal affairs and public information officers. OPR
anticipates that the methodology tool will be completed by October
31, 2011.

ICE is creating an MOA Measurable Template and using
Microsoft Access to assist 287(g) Inspections Unit personnel with
classifying issues identified during a 287(g) inspection as either an
area of concern or a deficiency.

OIG Analysis: This recommendation is resolved and open
pending our receipt and review of the sampling methodology tool,
the MOA Measurable Template, and documentation worksheets.

Recommendation #8: Assess the current MOA to identify
language that does not (1) clearly specify program requirements or
(2) provide a measurable standard for assessing compliance.

ICE Response: ICE concurs with Recommendation #8.

Please reference our response to Recommendation #9.

OIG Analysis: This recommendation is resolved and open
pending our receipt and review of the assessment results.

Recommendation #9: Develop MOA language that clearly
specifies program requirements, provides a measurable standard
for assessing compliance, and eliminates the need to interpret
program requirements.

ICE Response: ICE concurs with Recommendation #9.

ICE will review the MOA language and assess whether program
requirements can be described more clearly, and compliance
measures can be defined. Once the assessment has been completed,


The Performance of 287(g) Agreements FY 2011 Update


                      Page 21

ICE will provide the results and any resulting language
modifications to the OIG.

OIG Analysis: This recommendation is resolved and open,
pending our receipt and review of the assessment results.

Recommendation #10: Develop and standardize definitions for
determining the appropriate classifications for issues identified as a
deficiency or area of concern.

ICE Response: ICE concurs with Recommendation #10.

OPR defines a deficiency as a violation of written policy that can
be specifically linked to the terms of the 287(g) MOA, ICE policy,
or operational procedure. OPR defines an area of concern as
something that may lead to or risk a violation of the terms of the
287(g) MOA, ICE policy, or operational procedure.

OPR is using Microsoft Access to assist 287(g) Inspections Unit
personnel with classifying issues identified during a 287(g)
inspection as an area of concern or a deficiency. This computer
software will use definitions for each area of concern or
deficiency, and provide a common naming convention for each
issue. OPR has included the definitions for “area of concern” and
“deficiency” in its draft Roles and Responsibilities Handbook, and
will address the issue at the September training. The definitions
will also be included in future 287(g) reports so readers have a
better understanding of the terms.

OPR expects to have all of the information from the FY 2011
inspections entered in the software program by October 31, 2011,
and expects the program to be operational prior to the first
published report for FY 2012.

OIG Analysis: This recommendation is resolved and open
pending our receipt and review of the final OPR Roles and
Responsibilities Handbook, and appropriate documentation to
confirm that the software program is operational and ensures
consistency with regard to issues identified during inspections.

Recommendation #11: Develop a process to ensure that 287(g)
Inspection Reports are provided timely to appropriate field offices.

ICE Response: ICE concurs with Recommendation #11.



The Performance of 287(g) Agreements FY 2011 Update


                      Page 22

Standard operating procedures are being approved for the ICE
OPR review process.

OIG Analysis: This recommendation is resolved and open,
pending our receipt and review of the final standard operating
procedures.

Recommendation #12 (revised): Ensure that any reallocation of
287(g) funds complies with Office of Management and Budget
(OMB) and DHS policy guidance and relevant administrative
controls.

ICE Response: ICE does not concur with Recommendation #12.

The justification for this recommendation is not factually correct.
Responsibility for budget execution is under the purview of the
Chief Financial Officer and has never been assigned to the Office
of State, Local, and Tribal Coordination or the ERO Office of
Mission Support. These programs are responsible for implementing
the budget. To ensure that funds are spent properly, ICE has
issued policy guidance outlining administrative control of funds
policies set forth by OMB and DHS, and a Budget Execution
Handbook outlining how each ICE program is to implement
budget execution processes and procedures.

The handbook includes instructions dealing with allowances and
sub-allowances and reiterates that sub-allowances to support a
special effort should be made to the specific accounting string so
that obligations and disbursements can be tracked and reported as
required. Section 10.1 of the handbook includes information that
ICE Chief Financial Officer’s Office of Budget and Program
Performance (OBPP) developed the Project and Task codes for
287(g) tracking that all programs must use. The project code
ensures that reports can be easily produced from the financial
system showing 287(g) spending across all Program Project
Activities, and the task code delineates types of expenditures.
OBPP regularly reviews these reports as part of the execution
monitoring process, and is able to confirm that funds are used for
the purpose intended.

OIG Analysis: ICE did not concur with this recommendation, as
originally drafted.

We accept the explanation provided regarding the organizational
structure, roles, and responsibilities for budget execution and


The Performance of 287(g) Agreements FY 2011 Update


                      Page 23

implementation, along with information in the handbook on 287(g)
project and task code tracking.

As described in this report, ERO identified $11,000,000 in
obligated funds from seven of the nine programs to support a
shortfall for ERO 287(g)-related activities. Of this amount,
$682,000 was from OPR. However, we were not provided
documentation to determine how or whether any of these funds
were used to support ERO program needs. To satisfy this
recommendation, ICE needs to provide specific details describing
any reallocation of 287(g) funds, and how any ERO shortfall was
supported. This recommendation remains unresolved and open.

Recommendation #13: Provide a detailed analysis of 287(g)-
related activities and associated costs to support their use as
intended by appropriation.

ICE Response: ICE concurs with Recommendation #13.

OBPP will work with the 287(g) Project Management Office to
provide a detailed analysis of 287(g) funds.

OIG Analysis: This recommendation is resolved and open
pending our receipt and review of the analysis of 287(g) funds.




The Performance of 287(g) Agreements FY 2011 Update


                      Page 24

Appendix A
Purpose, Scope, and Methodology

                   We conducted this review in response to the Department of
                   Homeland Security Appropriations Act, 2010, and accompanying
                   House Report 111-157 and Conference Report 111-298. Our
                   objectives were to assess (1) the progress ICE has made in
                   addressing our recommendations included in prior reports
                   OIG-10-63, The Performance of 287(g) Agreements, and
                   OIG-10-124, The Performance of 287(g) Agreements Report
                   Update, and (2) the propriety of OPR’s 287(g) Inspections Unit in
                   assessing partnering law enforcement agencies’ compliance with
                   287(g) Memoranda of Agreements.

                   We conducted our fieldwork from April to June 2011 and
                   interviewed OPR and ERO officials, OPR 287(g) inspectors, and
                   ICE personnel working with the 287(g) program. To assess the
                   effectiveness of OPR’s 287(g) Inspections Unit, we observed and
                   evaluated 287(g) inspections of the Cobb County Sheriff’s
                   Department in Cobb County, Georgia, and the Herndon Police
                   Department, in Herndon, Virginia.

                   We also assessed actions ICE has taken to address recommendations
                   from our prior reviews of 287(g) program operations.

                   We conducted this review under the authority of the Inspector
                   General Act of 1978, as amended, and according to the Quality
                   Standards for Inspections issued by the Council of the Inspectors
                   General on Integrity and Efficiency.




                   The Performance of 287(g) Agreements FY 2011 Update


                                         Page 25

Appendix B
Management Comments to the Draft Report



                                                                            of/he Chief Financial Officer

                                                                       U.S. Deplnment or Homcllnd S«urity
                                                                       500 12'" Stuel. SW
                                                                       Washington. DC 20536


                                                                        u.s. Immigration
                                                                        and Customs
                                                                        Enforcement

                                              September 16, 20 II


         MEMORANDUM FOR: Carlton 1. Mann
                         Assistant Inspector General for Inspections
                         Office of Inspector G~ne

         FROM:                    Radha C. Sekar
                                  Chief Financial Offic

         SUBJECT:                 Management Response to OIG Draft, «The Perfonnance of287(g)
                                  Agreements FY 2011 Update", dated August 24, 2011

         U.S. lmmigration and Customs Enforcement (ICE) appreciates the opportunity to comment on
         the draft report. Attached is our response to each of the 13 recommendations. We have
         reviewed and concur with 12 of the 13 recommendations. ICE will continue working to resolve
         all identified weaknesses.

         ICE does not concur with recommendation 12. The justification for this recommendation is not
         factually correct. Responsibility for budget execution is under the purview of the ICE Chief
         Financial Officer (CFO) and has never been assigned to ICE programs. The programs are
         responsible for implementing the budget. CFO's Office of Budget Program and Perfonnance
         (OBPP) regularly reviews reports as part of the execution monitoring process and is able to
         confinn that funds are used for the purpose intended.

         Should you have questions or concerns, please contact Michael Moy, OIG Portfolio Manager, at
         (202) 732-6263, or bye-mail at MichaeI.MoY@dhs.gov.


         Attachments




                                                                                         www.ice.go'l




                       The Performance of 287(g) Agreements FY 2011 Update

                                                  Page 26
Appendix B
Management Comments to the Draft Report



                                       Immigration and Customs Enforcement

                             Performance of 287(g) Agreements - FY 2011 Update

                              OIG Draft Report - Responses to Recommendations


         Recommendation # 1: Enhance the current 287(g) training program to provide an appropriate
         level of coverage for all areas of the 287(g) inspection process and MOA requirements.

         Response # I: ICE concurs with this recommendation. In September 2011, ICE's Office of
         Professional Responsibility (OPR) will hold a 287(g) Inspection Training Conference in
         Washington, D.c' The training, which will be provided to all members of the 287(g) Inspections
         Unit, is premised on the December 201 0 training. The September training will allow OPR
         management to, among other things, address recommendations made in the FY20ll OIG audit
         and discuss changes that will be implemented in response to specific OIG recommendations. A
         copy of the training agenda is being provided for your review.

         The training will cover each section of the 287(g) Memorandum of Agreement (MOA) and
         explain ways for 287(g) Inspections Unit personnel to measure whether or not ICE and the
         partnering agency adhere to the MOA terms. Additionally, participants will receive extensive
         training on interviewing techniques that will allow them to perform their jobs more effectively.
         The training will further review OPR's new draft 287(g) Inspections Unit Roles and
         Responsibilities Handbook and updated interview worksheets. Instruction will include civil
         liberty issues that affect the 287(g) program, items to look for when reviewing A-files,
         ENFORCE processing, interpreting statistics, and writing inspection reports.

         The training will also provide instruction regarding «best practices" for 287(g) programs and ICE
         offices that supervise them. This will allow 287(g) Inspections Unit personnel to share best
         practices observed during the FY 2011 inspection year. OPR will also discuss ways to improve
         the inspections process and review best methodologies for conducting future inspections.

         ICE requests that this recommendation be considered resolved and open pending completion of
         the training.

         Recommendation # 2: Establish a process to ensure that fonnal training is provided to all
         inspectors.

         Response # 2: ICE concurs with this recommendation. ICE OPR will continue to provide
         annual training for the 287(g) Inspections Unit to address areas identified by management as
         needing improvement. This year's training scheduled for September 2011 will focus on core
         areas that both OPR management and OIG identified as critical skills. The training will provide
         instruction on interviewing, report writing, and the 287(g) MOA and its terms.



                                                                                                            1




                         The Performance of 287(g) Agreements FY 2011 Update

                                                    Page 27
Appendix B
Management Comments to the Draft Report



                                       Immigration and Customs Enforcement

                              Performance of 287(g) Agreements - FY 2011 Update

                              OIG Draft Report - Responses to Recommendations


         IflCE management, Team Leaders, or employees ideiltify a need for additional training to assist
         287(g) Inspection employees with areas such as A-File review, ENFORCE processing,
         understanding immigration law, or understanding the 287(g) MOA or its tenns, then OPR will
         send the individual to additional ICE training. In addition to courses available electronically on
         ICE's Virtual University site, the TCE Office of Training and Development offers two in-person
         courses specific to 287(g) that are available to OPR personnel.

         The ICE Immigration Authority Delegation Program Oversight (IADPO) course provides three
         days of training and guidance designed for ICE personnel who manage or oversee 287(g) state,
         local, or municipal law enforcement officers. The training provides a comprehensive
         understanding of the 287(g) program and background infonnation on the MOA, as well as an
         understanding of the roles and responsibilities as 287(g) supervisors. OPR secured slots for eight
         287(g) lnspections Unit employees to attend the next session of this training in October 2011,
         and will seek additional slots as new team members join the Unit.

         The ICE Immigration Authority Delegation Program (lADP) course is nineteen days of
         instruction designed to train state and local law enforcement officers and certify them to enforce
         federal immigration law. The course provides classes on areas such as statutory authority,
         nationality law, immigration law, criminal law, A-File preparation, ENFORCE/IDENT,
         preparing Forms 1-213, as well as practical exercises.

         OPR has created a draft Roles and Responsibilities Handbook for 287(g) Inspections employees.
         The purpose of this document is to provide new and existing 287(g) Inspections Unit personnel
         the foundation for their daily roles and responsibilities in support of the Unit.

         ICE requests that this recommendation be considered resolved and open pending publication of
         the handbook.

         Recommendation # 3: Develop and implement guidance for providing on-the-job training.

         Response # 3: ICE concurs with this recommendation. ICE OPR will implement permanent
         Team Leaders for each inspection team. Team Leaders are team members who have exceeded
         expectations in all core areas of the inspection process to include interviewing and report writing.
         Team Leaders will be responsible for training new members of their inspection team as well as
         providing guidance for all existing members.

         New employees will be assigned as "observers" on the initial inspections they attend,
         accompanying the inspection Team Leader during the pre-inspection planning, inspection, and
         post-inspection duties. During their second inspection, employees will again be assigned to
                                                                                                              2




                         The Performance of 287(g) Agreements FY 2011 Update

                                                     Page 28
Appendix B
Management Comments to the Draft Report



                                       Immigration and Customs Enforcement

                             Performance of287(g) Agreements - FY 2011 Update

                              DIG Draft Report - Responses to Recommendations


         observe the Team Leader but will be expected to playa more active role in the inspection by
         taking notes during the interviews and completing initial write-ups for the report. The Team
         Leader will review these initial write-ups and ensure the work includes all required information
         and is of sufficient quality. On the third inspection, the new employee will participate in the
         inspection as a full member of the team, with all of the duties and responsibilities ofa team
         member. During this third inspection, the Section Chief will accompany the inspection team to
         evaluate the new employee's ability to perform 287(g) Inspections Unit duties. After the
         inspection, the Section Chief will determine if the individual is fully prepared or if additional
         training is required.

         In addition to this plan for on-the-job training for new employees, OPR supervisors will observe
         all employees during selected inspections. This will give supervisors the opportunity to provide
         timely feedback to employees, including any specific training needed during the inspections.

         ICE requests that this recommendation be considered resolved and open pending implementation
         of the Team Leader and Section Chief policy.

         Recommendation # 4: Establish a process to ensure that inspectors are proficient in
         interviewing and report-writing skills.

         Response # 4: ICE concurs with this reconunendation. In mid-September 2011. ICE will hold a
         287(g) Inspection Training Conference in Washington, D.C. Two days will be dedicated to
         interviewing techniques.

         Interview training will be provided by a private company that specializes in interview
         techniques. During the two-day training, personnel will be taught best practices for obtaining
         information from interviews. Classes include techniques for conducting interviews more
         effectively. conducting non-accusatory interviews to evaluate truthfulness, factual analysis and
         its application in interviews. interpretation of verbal and physical behavior, and
         non-confrontational interviews. ICE OPR has requested that the training be tailored to focus on
         non-confrontational type interviews, similar to those conducted by 287(g) personnel.

         All 287(g) Inspections Unit employees will also be provided with an annual Performance Plan
         and Appraisal outlining the individual goals and benchmarks needed to achieve expectations in
         the 287(g) Inspections Unit. Each plan will include measuring an individual's interviewing
         skills. Throughout FY20 12, supervisors will assess interview skills by direct observation during
         inspections, and by reviewing interview notes from inspections not attended by the supervisor.

                                                                                                             3




                         The Performance of 287(g) Agreements FY 2011 Update

                                                     Page 29
Appendix B
Management Comments to the Draft Report



                                      Immigration and Customs Enforcement

                             Performaoce of 287(g) Agreemeots - FY 2011 Update

                             OIG Draft Report - Responses to Recommendations


         ICE requests that this recommendation be considered resolved and open pending implementation
         of the training policy.

         Recommendation # 5: Incorporate periodic supervisory field visits into the inspection process.

         Response # 5: ICE concurs with this recommendation. In June 2011, ICE 287(g) Inspections
         Unit Section Chiefs began attending 287(g) reviews in an effort to evaluate team and individual
         performances and identify possible gaps in training. Section Chiefs attended two of the last 13
         reviews. rCE will increase the number of supervisory field visits in FY2012 in an effort to
         accompany inspection teams no less than eight times per fiscal year. The Deputy Division
         Director will accompany inspections no less than four times per fiscal year. These goals will be
         incorporated into the Performance Plan and Appraisals for Section Chiefs and the Deputy
         Division Director.

         ICE requests that this recommendation be considered resolved and open pending implementation
         of the performance plan.

         Recommendation # 6: Revise the current inspection tools to ensure coverage of all applicable
         MOA sections.

         Response # 6: ICE concurs with this recommendation. ICE OPR recognized a need for a
         reference tool that would provide 287(g) Inspections Unit personnel with a document that
         identifies areas within each section of the 287(g) Memorandum of Agreement (MOA) that
         require compliance. ICE is creating an MOA Measurable Template that highlights all
         measurable sections of the MOA, and provides guidance and investigative techniques on how
         Inspection personnel can determine if the LEA and ICE are in compliance with these MOA
         terms. rCE has provided a draft copy of the MOA Measurable Template for your review and
         anticipates having a final version completed by October 31,2011.

         ICE OPR also reviewed the interview worksheets provided to OIG as part of their inspection.
         During the review, OPR identified areas that were not covered; as well as, questions no longer
         applicable to the 287(g) MOAs signed in 2009. OPR initiated a process to update the interview
         worksheets to revise and incorporate new questions as well as remove questions no longer
         relevant to the 287(g) program. OPR also made a concerted effort to create open-ended
         questions that allow OPR personnel to better identify interviewees' knowledge on specific
         topics.


                                                                                                            4




                        The Performance of 287(g) Agreements FY 2011 Update

                                                    Page 30
Appendix B
Management Comments to the Draft Report



                                       Immigration and Customs Enforcement

                             Performance of 287(g) Agreements - FY 2011 Update

                              OIG Draft Report - Responses to Recommendations


         OPR created the worksheets to provide 287(g) Inspections Unit personnel with a resource to
         ensure the same relevant areas of information are collected from each interviewee type; this
         provides more focus than a conversational approach, but still allows a degree of freedom and
         adaptability in obtaining information from the interviewee. As always, the interviewer is
         reminded to conduct follow-up questions to further investigate individual responses. OPR
         reviewed the 010 draft report and incorporated concerns and recommendations made by DIG
         into the interview worksheets. The worksheets will be provided to all 287(g) lnspections Unit
         employees in the Roles and Responsibilities Handbook. OPR anticipates having final versions of
         all interview worksheets by October 31, 2011.

         ICE requests that this recommendation be considered resolved and open pending publication of
         the Handbook.

         Recommendation # 7: Ensure that inspection tools incorporate appropriate methodologies for
         specific tasks, including sampling techniques.

         Response # 7: ICE concurs with this recommendation. ICE aPR will create an inspection tool
         to provide a methodology for determining sampling techniques during individual inspections.
         The inspection tool will target how many detainees to interview, how many A-file reviews to
         conduct, and how many LEA and ICE personnel to interview to ensure inclusion of supervisory
         levels and specific responsibilities such as internal affairs and public information officers. aPR
         anticipates the methodology tool will be completed by October 31, 2011.

         ICE is creating an MOA Measurable Template that highlights all measurable sections of the
         MOA, and provides guidance and investigative techniques on how Inspection personnel can
         determine if the LEA and ICE are in compliance with these MOA terms. ICE has provided a
         DRAFT copy of the MOA Measurable Template for your review and anticipates having a final
         version completed by October 31,2011. ICE is also using Microsoft Access to assist 287(g)
         Inspections Unit personnel with classifying issues identified during a 287(g) inspection as either
         an area of concern or a deficiency. This computer software will use definitions for each area of
         concern or deficiency and provide a common naming convention for each issue, ensuring aPR is
         providing consistent information from one inspection to the next regarding issues identified.
         Further, aPR has initiated a process to update 287(g) Inspections Unit interview worksheets to
         revise and incorporate new questions as well as remove questions no longer relevant to the
         287(g) program. aPR also made a concerted effort to create open-ended questions that allow
         OPR personnel to better identify interviewees' knowledge on specific topics. We have attached
         a draft copy of the MOA Measurable Template.
                                                                                                              5




                         The Performance of 287(g) Agreements FY 2011 Update

                                                     Page 31
Appendix B
Management Comments to the Draft Report



                                      Immigration and Customs Enforcement

                             Performance of 287(g) Agreements - FY 2011 Update

                             OIG Draft Report - Responses to Recommendations


         ICE requests that this recommendation be considered resolved and open pending publication of
         the new inspection tool and Template.

         Recommendation # 8: Assess the current MOA to identify language that does not (1) clearly
         specify program requirements or (2) provide a measurable standard for assessing compliance.

         Response # 8: ICE concurs with this recommendation. Please reference our response to
         recommendation # 9.

         ICE requests that this recommendation be considered resolved and open pending completion of
         the assessment.

         Recommendation # 9: Develop MOA language that clearly specifies program requirements,
         provides a measurable standard for assessing compliance, and eliminates the need to interpret
         program requirements.

         Response # 9: ICE concurs with this reconunendation. ICE will review the MOA language and
         assess ifprogram requirements can be described more clearly and if compliance measures can be
         defined.. Once our assessment has been done, we will provide the results of our assessment and
         any resulting language modifications to the OIG.

         ICE requests that this recommendation be considered resolved and open pending completion of
         the assessment and implementation <;>f any needed MOA changes.

         Recommendation # 10: Develop and standardize definitions for determining the appropriate
         classification for issues identified as a deficiency or area of concern.

         Response # 10: ICE concurs with this recommendation. ICE defines a deficiency as a violation
         of written policy that can be specifically linked to the tenus of the 287(g) MOA or to ICE policy
         or operational procedure. ICE defines an area of concern as something that may lead to or risk a
         violation of the terms of the 287(g) MOA or ICE policy or operational procedure.

         TCE requests that this recommendation be considered resolved and closed.

         IfOPR determines an LEA or TCE component is not aware of or not following the terms of
         certain sections of the MOA or ICE policy or operational procedures, however no violation has
         occurred in practice, OPR will identify that issue as an area of concern. For example, ifOPR
         discovers the LEA's internal affairs division is unaware of the MOA's requirements for reporting

                                                                                                         6




                        The Performance of 287(g) Agreements FY 2011 Update

                                                    Page 32
Appendix B
Management Comments to the Draft Report



                                       Immigration and Customs Enforcement

                             Performance of 287(g) Agreements - FY 2011 Update

                              OIG Draft Report - Responses to Recommendations


         misconduct allegations to ICE, but there have not been any misconduct issues to report, then
         OPR will categorize the LEA's not knowing the terms of the MOA as an area of concern.

         OPR is using Microsoft Access to assist 287(g) Inspections Unit personnel with classifying
         issues identified during a 287(g) inspection as either an area of concern or a deficiency. This
         computer software will use definitions for each area of concern or deficiency and provide a
         common naming convention for each issue, ensuring OPR is providing consistent information
         from one inspection to the next regarding issues identified. OPR is using areas of concern and
         deficiencies identified from the FY2011 inspections to populate the software program. As new
         areas of concern or deficiencies are identified during inspections, any new information will be
         added to the software program. OPR expects to have all of the information from the FY2011
         inspections entered in the software program by October 31, 2011 and for the program to be
         operational prior to the first published report for FY2012.

         OPR has included the definitions for "area of concern" and "deficiency" in its draft Roles and
         Responsibilities Handbook. aPR will also address the issue at the September training during the
         "Inspection Report Writing" and "OlG Report Review" blocks of instruction. This will ensure
         inspection unit personnel have a firm understanding of the terms and when to categorize
         something as a deficiency or an area of concern. These definitions also will be included in future
         287(g) reports so readers have a better understanding of the terms.

         Recommendation # 11: Develop a process to ensure that 287(g) Inspection Reports are
         provided timely to appropriate field offices.

         Response # 11: ICE concurs with this recommendation. Standard Operating Procedures are
         being approved for the ICE aPR review process.

         ICE requests that this recommendation be considered resolved and open pending completion of
         Standard Operating Procedures.

         Recommendation # 12: Ensure that any reallocation of287(g) funds complies with the intent of
         the Consolidated Security, Disaster Assistance, and Continuing Appropriations Act 0/2009.

         Response # 12: ICE does not concur with this recommendation. The justification for this
         recommendation is not factually correct. Responsibility for budget execution is under the
         purview of the Chief Financial Officer and has never been assigned to the Office of State, Local,
         and Tribal Coordination or the ERO Office of Mission Support. These programs are responsible
         for implementing the budget. To ensure that funds are spent properly, ICE has issued:

                                                                                                           7




                         The Performance of 287(g) Agreements FY 2011 Update

                                                    Page 33
Appendix B
Management Comments to the Draft Report


                                   Draft Report - Responses to Recommendations


            (1) policy guidance outlining administrative control of funds policies set forth by OMB and
                DHS, and
            (2) a Budget Execution Handbook outlining how each ICE program is to implement budget
                execution processes and procedures.

         The handbook includes specific instructions dealing with allowances and sub-allowances and
         reiterates that if a Program Office has received funds to support a special effort, sub-allowances
         should be made to the specific accounting string so that obligations and disbursements are able to
         be tracked and reported as required. In Section 10.1, the handbook specifically illustrates: "For
         example, OBPP (ICE CFO's Office of Budget and Program Perfonnance) developed the Project
         and Task codes for 287(g) tracking that all programs must use. The project code ensures reports
         can be easily produced from the financial system showing 287(g) spending across all PPAs
         (program Project Activity) and the task code further delineates types of expenditures. OBPP
         regularly reviews these reports as part of the execution monitoring process and is able to confirm
         that funds are used for the purpose intended.

         ICE requests that this recommendation be considered resolved and closed.

         Recommendation # 13: Provide a detailed analysis of 287(g)-related activities and associated
         costs to support their use as intended by appropriation.

         Response # 13: ICE concurs with this recommendation. ICE OCFO's Office of Budget and
         Program Per[onnance (OBPP) will work with the 287(g) Project Management Office (PMO) to
         provide a detailed analysis of the 287(g) fund All programs receiving 287(g) funds are required
         to submit Spend Plans to OSP? detailing their planned activities and associated costs for the
         year. OBPP crosschecks all staffing plans and general expenses to the appropriate corresponding
         dollars and OMB object class on the spend plan to ensure that planned expenditure of funds
         correlates to its intended use. For example, the purpose of Custody Ops funding is for beds and
         related costs. OBPP would examine the spend plan to ensure that GE funds are aligned with
         object class code 25.4 which represents facilities for beds. At a minimum, execution reviews are
         scheduled quarterly to review 287(g) activity and OBPP performs a bi-weekly analysis during
         which actual obligations/expenditures are compared to the spend. plans.

         ICE requests that this recommendation be considered resolved and open pending production ofa
         detailed analysis.




                                                                                                          8




                        The Performance of 287(g) Agreements FY 2011 Update

                                                    Page 34
Appendix C
Status of Recommendations From Prior OIG Reports

Status of Recommendations from Prior OIG Report OIG-10-63,
The Performance of 287(g) Agreements, dated March 2010

Summary:

33 Total Recommendations

17 Closed
12 Resolved and open
 4 Unresolved and open

Recommendation #2: Develop procedures to ensure that 287(g) resources are allocated
according to ICE’s priority framework.

ICE Response: Establish a policy and document corrective actions if a 287(g) program is not
operating according to ICE priorities. The policy will include actions that the Special Agents in
Charge (SACs and Field Office Directors (FODs) will take to ensure compliance with ICE
priorities; follow-up procedures to ensure that measures taken by the SACs/FODs result in
increased compliance with ICE priorities; a corrective action plan to minimize entries coded as
“no data,” which represent a record that was not completed properly; performance measures with
specific target levels for arrest, detention, and removal priority levels; and documented internal
oversight of 287(g) supervisors.

OIG Analysis: This recommendation is resolved and open pending our receipt of standard
operating procedures to ensure adherence to ICE priority levels, and appropriate resource
allocations based on ICE’s priority framework.

Recommendation #4: Establish a process to ensure effective supervision of 287(g) officers and
immigration enforcement operations.

ICE Response: ICE will establish written policy defining the roles of ICE agents who supervise
287(g) officers and immigration enforcement operations; provide a copy of the ICE Office of
Training and Development’s final curriculum; provide an evaluation of training effectiveness
following completion of the curriculum; and provide a copy of the final FY 2011 Office of State,
Local and Tribal Coordination’s 287(g) Communication Plan.

OIG Analysis: This recommendation will remain resolved and open pending our receipt and
review of the final version of these documents, and ICE implementation.

Recommendation #6: Ensure that 287(g) supervision is provided by authorized staff with the
appropriate knowledge, skills, and abilities.

ICE Response: ICE will provide a copy of the final curriculum regarding ICE training for
managing 287(g) agents and officers. This curriculum is used to teach ICE personnel the
technical knowledge needed to perform supervisory tasks over 287(g) officers. ICE will also


                          The Performance of 287(g) Agreements FY 2011 Update


                                                Page 35

Appendix C
Status of Recommendations From Prior OIG Reports

establish a policy that mandates that all ICE agents supervising 287(g) officers must take and
pass this course.

OIG Analysis: This recommendation is resolved and open pending our receipt of the final
training curriculum as described, the policy mandating completion of the course by ICE agents
supervising 287(g) officers, and controls established to ensure compliance with this policy.

Recommendation #7: Develop and implement 287(g) field supervision guidance that includes,
at a minimum, (1) the frequency and type of contact required between 287(g) officers and ICE
supervisors; (2) the preparation, review, and approval of operational plans for community-based
immigration enforcement activities; and (3) performance feedback requirements for 287(g)
officers.

ICE Response: This recommendation can be accomplished through management actions
previously provided for Recommendations 1, 2, 4, and 6. This includes the field supervision
guide, outreach, and 287(g) performance feedback.

OIG Analysis: This recommendation will remain resolved and open pending receipt of the
final version of each referenced document and process.

Recommendation #8: Establish and implement a comprehensive process for conducting
periodic reviews, as well as reviews on an as-needed basis, to determine whether to modify,
extend, or terminate 287(g) agreements. At a minimum, this process should include an
assessment of (1) current or previous concerns expressed by field office staff; (2) media attention
or community concerns that contribute to negative or inappropriate conclusions about the 287(g)
program; (3) lawsuits or complaints; (4) potential civil rights and civil liberties violations; and
(5) ICE’s ability to provide effective supervision and oversight.

ICE Response: Provide a final copy of ICE policy, Review, Suspension, and Termination of
287(g) Memoranda of Agreement.

OIG Analysis: This recommendation will remain resolved and open pending our receipt and
review of the final policy regarding the review, suspension, and termination of 287(g) MOAs.

Recommendation #10: Establish a process to periodically crosscheck OPR, OSLC, and OCIO
records to confirm 287(g) officers’ eligibility and suitability to exercise authorities granted under
287(g) MOAs.

ICE Response: Provide a final copy of ICE policy, Suspension or Revocation of a Designated
Immigration Officer’s 287(g) Authority.

OIG Analysis: This recommendation will remain resolved and open pending receipt of the
referenced policy.

Recommendation #12: Establish and implement procedures on how the results of complaints,
allegations, and subsequent investigations against LEA personnel conducting immigration
                           The Performance of 287(g) Agreements FY 2011 Update


                                                 Page 36

Appendix C
Status of Recommendations From Prior OIG Reports

enforcement activities should be maintained and used as part of the suitability and recertification
processes.

ICE Response: Provide a final copy of ICE policy, Suspension or Revocation of a Designated
Immigration Officer’s 287(g) Authority, and ICE directive, Review, Suspension and Termination
of 287(g) Memoranda of Agreement. Also, develop a communication plan to implement
established procedures.

OIG Analysis: This recommendation will remain resolved and open pending receipt of the
final referenced policy, directive, and communication plan.

Recommendation #13: Establish specific operating protocols and requirements for operational
variances identified in task force and jail enforcement program models.

ICE Response: Provide standard 287(g) Memorandum of Agreement. Where feasible, ICE will
inform LEAs of variances in 287(g) operating protocols and encourage LEAs to adopt best
practices.

OIG Analysis: ICE’s response does not address the intent of this recommendation, which is to
ensure that operational procedures that allow for variations in how 287(g) officers exercise their
authority within a program model are consistently addressed. This recommendation will remain
unresolved and open.

ICE Response Update: The Memorandum of Agreement (MOA) establishes standard uniform
procedures, accounting for the operational variances between the task force and the jail
enforcement program models under appendix D.

OIG Analysis Update: As described in our report, the MOA takes into consideration that task
force and jail enforcement officers are authorized to perform different immigration functions,
and are subject to different selection and supervision requirements. However, the MOA does not
take into consideration the wide variations that exist within task force and jail enforcement
models as part of daily field operations. This recommendation will remain unresolved and open
until operating protocols to address variances within task force and jail enforcement program
models are established and applied consistently.

Recommendation #18: Establish collection and reporting standards that provide objective data
to increase monitoring of methods participating jurisdictions use in carrying out 287(g)
functions, and their effect on civil liberties. Collection and reporting requirements should
include (1) the circumstances and basis for task force officer contacts with the public, (2) the
race and ethnicity of those contacted, and (3) the prosecutorial and judicial disposition of 287(g)
arrests.

ICE Response: ICE did not include this recommendation in its response.

OIG Analysis: ICE’s initial response included its conduct of an assessment of this
recommendation to ensure that ICE’s 287(g) partners protect the civil liberties of every
                          The Performance of 287(g) Agreements FY 2011 Update


                                                Page 37

Appendix C
Status of Recommendations From Prior OIG Reports

individual they encounter. This recommendation remains unresolved and open pending our
receipt of the assessment described by ICE.

Recommendation #21: Enhance the current 287(g) training program to provide comprehensive
coverage of immigration systems and processing. At a minimum, this should include hands-on
experience during the 287(g) basic training course, on-the-job training, and periodic refresher
training.

ICE Response: Provide a final copy of the Curriculum Design Plan Report, ICE Training for
Managing 287(g) Agents and Officers.

OIG Analysis: This recommendation remains resolved and open pending our receipt of the
referenced report, and implementation of the training curriculum.

Recommendation #22: Ensure that an appropriate level of coverage on immigration benefits,
asylum, and victim and witness protections is included as part of the 287(g) basic training
agenda.

ICE Response: Provide a final copy of the Curriculum Design Plan Report, ICE Training for
Managing 287(g) Agents and Officers. Because the 287(g) basic training agenda is identical to
the training offered to ICE personnel, ICE does not agree that changing the level of coverage is
justified. The core objectives of the ICE 287(g) basic training program are based directly from
the basic training programs for both Enforcement Removal Operations and Homeland Security
Investigations staff. Also, ICE believes all training is consistent across ICE programs.

OIG Analysis: As shown in our report, there was limited information in the 287(g) basic
training program on significant immigration benefits, such as the Nicaraguan Adjustment and
Central American Relief Act and the American Baptist Churches v. Thornburg Stipulated
Settlement Agreement. Also, as part of the four examinations administered during the 287(g)
basic training course, only three questions relate to victim and witness protections and asylum.
No examination questions address the asylum process or immigration benefits. An appropriate
level of knowledge in these areas could minimize processing errors and reduce the risk of
wrongful detention and deportation. ICE’s response does not indicate any changes to coverage
of immigration benefits, asylum, and victim and witness protections. This recommendation
remains unresolved and open.

Recommendation #23: Establish and issue guidance to field office staff for 287(g) officer
annual recertification training that emphasizes completion of online refresher training courses.

ICE Response: Provide a final copy of the Annual Verification of Designated Immigration
Officers’ Recertification of Delegated 287(g) Authority.

OIG Analysis: This recommendation remains resolved and open pending receipt of the final
referenced document from ICE.



                          The Performance of 287(g) Agreements FY 2011 Update


                                                Page 38

Appendix C
Status of Recommendations From Prior OIG Reports

Recommendation #24: Designate field office responsibilities for monitoring and enforcing
compliance with training guidance, to include, at a minimum, issuing and enforcing revocation
notices for 287(g) officers who do not complete required training.

ICE Response: Provide final copies of Suspension or Revocation of a Designated Immigration
Officer’s 287(g) Authority and Annual Verification of Designated Immigration Officers’
Recertification of Delegated 287(g) Authority.

OIG Analysis: This recommendation remains resolved and open pending receipt of the final
referenced documents.

Recommendation #25: Develop and implement clear guidelines for using interpreter support to
assist with immigration duties and responsibilities.

ICE Response: Where feasible, ICE will illustrate circumstances under which 287(g) officers
should actually use interpreter support. The attached Memorandum of Agreement with the
Lexington County Sheriff’s Department and appendix D provide guidelines for using interpreter
support.

OIG Analysis: The referenced Memorandum of Agreement and appendix D were not included
with ICE’s response. This recommendation remains unresolved and open pending our receipt
of guidelines on the circumstances in which interpreter support should be used to assist with
immigration duties and responsibilities.

ICE Response Update: Guidelines for providing interpreter support are set forth and agreed
upon in the 287(g) Memorandum of Agreement, Section XV.

OIG Analysis Update: The referenced Memorandum of Agreement requires that participating
law enforcement agency personnel provide an opportunity for subjects with limited English
language proficiency to request an interpreter. During our review, we identified wide variances
in the use of interpreters across program sites and among 287(g) officers. However, ICE has not
provided specific guidance on the circumstances in which 287(g) officers should proactively
seek interpreter services. This recommendation remains unresolved and open pending our
receipt of guidelines on the circumstances in which interpreter support should be used to assist
with immigration duties and responsibilities.

Recommendation #30: Develop training and provide basic program information for LEA
managers who maintain an oversight role for 287(g) officers in order to increase their
understanding of the program and encourage their support of 287(g) activities.

ICE Response: Provide a final copy of Curriculum Design Plan Report, ICE Training for
Managing 287(g) Agents and Officers, Office of Training and Development.

OIG Analysis: This recommendation will remain resolved and open pending our receipt of the
referenced document.


                          The Performance of 287(g) Agreements FY 2011 Update


                                                Page 39

Appendix C
Status of Recommendations From Prior OIG Reports

Recommendation #32: Develop a process for performing regular checks to ensure that aliens
identified through the 287(g) program are not held in unauthorized facilities while in ICE
custody.

ICE Response: ICE maintains an updated list of authorized detention facilities. To be on the
list, the facility must be in compliance with the annual inspection process. Beginning in
FY 2009, ICE’s appropriation requires any facility receiving two consecutive less-than-
acceptable ratings to be removed from the authorized list. In addition, detainees must be
immediately removed since appropriated funds may not be used to pay for detainees’ housing at
these facilities. As a failsafe mechanism, the facilities are removed from the financial
management system so that obligations cannot be recorded, and bills cannot be paid.
Enforcement Removal Operations has a draft policy that ICE is following while it is in the
clearance process.

OIG Analysis: This recommendation remains resolved and open pending our receipt of the final
policy.

ICE Response Update: ICE provided a final Enforcement Removal Operations policy that
pertains to closing this recommendation.

OIG Analysis Update: Enforcement and Removal Operations Policy 11152.01, Field Oversight
of 287(g) Program, specifies the responsibilities of field office personnel under the 287(g)
program. Specifically, it directs field office personnel to develop a process for performing
regular checks to ensure that aliens identified through the 287(g) program are not held in
unauthorized facilities while in ICE custody. This direction is identical to our initial
recommendation. This recommendation remains resolved and open pending our receipt of the
process developed for performing checks to ensure that aliens identified through the 287(g)
program are not held in unauthorized facilities while in ICE custody.




                         The Performance of 287(g) Agreements FY 2011 Update


                                               Page 40

Appendix C
Status of Recommendations From Prior OIG Reports

Status of Recommendations from Prior OIG Report OIG-10-124,

The Performance of 287(g) Agreements Report Update, dated September 2010


Summary:


16 Total Recommendations

12 Closed
 1 Resolved and open
 3 Unresolved and open

Recommendation #1: Take timely and appropriate actions to implement OIG recommendations
intended to strengthen management controls and improve oversight of 287(g) operations.

ICE Response: ICE’s response to OIG-10-63 addressed this recommendation.

OIG Analysis: This recommendation remains unresolved and open as ICE continues its efforts
to resolve the five remaining unresolved recommendations from our previous report.

Recommendation #12: Establish and implement a comprehensive process for determining
whether 287(g) program goals are being achieved. This should include analyses of encounters,
arrests, and removal statistics for each priority level.

ICE Response: Coordinate with 287(g) participants to identify and communicate program
goals, and develop a review process to evaluate how metrics for encounters, arrests, and removal
statistics relate to 287(g) program goals for each priority level.

OIG Analysis: ICE’s response includes an evaluation of how encounters, arrests, and removal
statistics relate to 287(g) goals for each priority level. However, it does not address the actual
use of these metrics in determining whether 287(g) goals are being achieved. This
recommendation will remain unresolved and open pending ICE’s establishment and
implementation of a comprehensive process for determining whether 287(g) program goals are
being achieved.

Recommendation #13: Establish a follow-up process for SACs and FODs to ensure that actions
taken by LEAs to improve their compliance with ICE priority levels are actually working to
achieve overall program goals of identifying and removing criminal aliens.

ICE Response: Establish steps for follow-up processes for FODs and SACs, and develop
performance metrics and indicators to evaluate the effectiveness of follow-up processes.

OIG Analysis: ICE’s response does not include a process to determine the effectiveness of
actions taken by LEAs to improve their compliance with ICE priority levels. This
recommendation remains unresolved and open.



                          The Performance of 287(g) Agreements FY 2011 Update


                                                Page 41

Appendix C
Status of Recommendations From Prior OIG Reports

Recommendation #16: Ensure that 287(g) officers are knowledgeable of all complaint
procedure requirements for notifying appropriate ICE officials of complaints or allegations
involving the violation of the terms of the MOA, or of any sort that may result in employee
discipline or an employee becoming the subject of a criminal investigation or civil lawsuit.

ICE Response: ICE will identify and review policy and procedure requirements for notifying
appropriate ICE officials of complaints or allegations involving the violation of the terms of the
MOA. In addition, ICE will establish training and communication plans to ensure all 287(g)
officers are aware and knowledgeable of requirements.

OIG Analysis: This recommendation is resolved and open pending our receipt of (1) a revised
curriculum with sufficient information to ensure that 287(g) officers are aware of their
responsibility to notify ICE officials of any type of complaint or allegation, and (2) revised
policy and procedure requirements for notifying appropriate ICE officials of complaints or
allegations involving violations of the 287(g) MOA.

ICE Response Update May 6, 2011: 287(g) students are provided with a “MOA Review”
student handbook which states, “If any participating LEA personnel are subject of a complaint of
any sort that may result in that individual receiving employer discipline or becoming the subject
of a criminal investigation or civil lawsuit the LEA shall, to the extent allowed by State law,
immediately notify ICE of the existence and nature of the complaint. The resolution of the
complaint shall also be promptly reported to ICE.” This issue is covered in the MOA Review
block of instruction and also during the “Officer Integrity/Complaint Procedures” block of
instruction. The lesson plans were also provided to OIG.

OIG Analysis: This recommendation remains resolved and open pending receipt of “Officer
Integrity/Complain Procedures” training materials, and a training/communications plan to ensure
that 287(g) officers are aware and knowledgeable of requirements.




                          The Performance of 287(g) Agreements FY 2011 Update


                                                Page 42

Appendix D
Major Contributors to this Report

                    Deborah Outten-Mills, Chief Inspector
                    Dagmar Firth, Senior Inspector
                    Tatyana Martell, Inspector




                    The Performance of 287(g) Agreements FY 2011 Update

                                          Page 43
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Director, U.S. Immigration and Customs Enforcement
                      ICE Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                      The Performance of 287(g) Agreements FY 2011 Update


                                            Page 44

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
